                                                  NATIONAL SCIENCE FOUNDATION
                             ,\   4-
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I05030013                                                                        Page 1 of 1



         An anonymous complainant forwarded an email alleging that NSF management failed to follow
         appropriatepersonnel policies and procedures in the hiring of an employee,' resulting in applications
         of other applicants with allegedly superior qualifications not being referred. The complainant also
         claimed that NSF Human Resource Management personnel stated that individuals he considered
         most qualified did not receive equal or fair consideration. The complainant claimed that the selected
         individual is not well-qualified for the position.

         I interviewed the NSF HR individual identified by the complainant and was given the opportunityto
         review the file concerning the hiring action at issue. The NSF HR individual specificallydenied ever
         making any comment such as that suggested by the complainant. Further, the NSF HR individual
         stated, and my review of the file confirmed, that applicants were rated and only "highly-qualified"
         candidates were referred to the selecting official for consideration and interview.

         No information or evidence supporting the complainant's allegation was discovered. Rather, both
         the documentary and testimonial evidence indicates the hiring action was conducted in an
         appropriate manner. Accordingly, this case is closed.




qSF OIG Form 2 (1 1/02)
